LAW OFFICES:
GOLDSTEIN & ORR

310 S, ST. MARY'S STREET
29TH FLOOR TOWER LIFE BUILDING
SAN ANTONIO, TEXAS 76208-3117

Grrato H. Gotosteis* £u1 GoLOSTEIN asieis9€)
LICENSED In TEXAS Arto COLORADS. VaN G. HILLEY (sae-2o16)

PHONE 210.226.1463
Kurt G. Mav FAK 210.226.8367

GOLDSTEINORR.LAW
Joun S. Gimore, 11

Crna Husar Ore"

"BOARD CERTIFIED CRIMINAL LAW
Aaron M. Diaz "BOARD CERTIFIED CRIMINAL APPEALS:
TEXAS HOARD OF LEGAL SPECIALIZATION

August 18, 2021

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1¢h), I certify that the PETITION FOR
WRIT OF CERTIORARI in the above entitle case complied with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12-point font for the text and 10-point font for the footnotes, and this petition
contains 2,957 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d), as needed.

By: /s/Cynthia EB. Orr
Cynthia E. Orr
